No. 19-__

 

IN THE
Supreme Court of the United States

COMCAST CORPORATION, ET AL.,

Petitioners,
v.

INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 25, 2020.

 

Wilson-Epes Printing Co., Inc.
